   NATIONAL RAILROAD
   PASSENGER CORPOARATION
                                           Office of Inspector General

                      Former Amtrak Contractor Arrested For Theft
                                      February 7, 2012
                                     Case # DC-12-0129

A former Amtrak contractor, Darius Thevathasan, was arrested today for illegally using an
Amtrak Business Rail Pass to obtain over 50 tickets during and after his assignment with
Amtrak. Thevathasan, a Junior Program Manager for Booz, Allen & Hamilton, had been issued a
Business Rail Pass for travel on official company business while working for Booz Allen on an
Amtrak contract. Thevathasan used the Business Rail Pass for personal travel over a 14-month
period. The cost associated with this travel was $8,548.

Thevathasan was arrested by the Amtrak Office of Inspector General today for First Degree
Theft. He will appear before the Superior Court of the District of Columbia for arraignment.
